APPENDIX A

STATE OF INDIANA
SS:
COUNTY OF MARION
IN THE MARION SUPERIOR COURT 13
CIVIL DIVISION
CAUSE NO. 49D13-1009—ES-040244
IN RE THE ESTATE OF AL KATZ, DECEASED
Hon. James A. Joven, Special Judge
AGREED ORDER OF INSTRUCTIONS AS TO SALE
OF RITTER AVENUE PROPERTY
Comes now: Robert W. York (“York”), the Court
appointed Successor Personal Representative and
attorney for the supervised estate in this cause; the
Internal Revenue Service (“IRS”), by and through the
United States of America and its counsel; and, the
Indiana Department of Revenue (“IDOR”), by and
through the State of Indiana and its counsel, and
jointly request the Court to enter the following
findings and Orders with respect to York’s Petition
for Instructions as to the sale of the Estate’s Ritter
Avenue Property and as to the distribution of
proceeds from that sale.
And the Court, having reviewed and considered
York’s Petition for Instructions and its record in this
cause, and, being duly advised in the premises, now
A1

finds that the Court should issue the following
Orders:
IT IS THEREFORE ORDERED, ADJUDGED AND
DECREED that the Personal Representative is
instructed to accept the purchase offer of J & D
Realty Services to purchase the Estate’s Ritter
Avenue Property for $62,000 in accordance with its
purchase offer, attached to York’s Petition as
Exhibit C, and to close on the sale to said purchaser
as reasonably soon as possible by, among other things
executing a Personal Representative’s Deed in the
form attached to the Court’s August 4, 2017 “Order
Directing Sale Of Ritter Avenue Property And
Distribution Of Proceeds” (“August 4, 2017 Sale
Order”) and paying the normal closing costs, expected
to be approximately $7,809.00.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that in accordance with the Court’s
August 4, 2017 Sale Order:
1. At such a time in advance of the closing for the
Title Insurance Policy to address the IRS’s tax lien on
the Ritter Avenue Property, the IRS will provide a
conditional discharge letter to York that provides that
once the IRS is paid from the sale proceeds at closing,
the IRS will issue such certificates of discharge Or
release for the property as appropriate. The
conditional discharge letter shall set out the amount
of the tax lien, together with the accrued interest
figures effective as of the date of closing and provide
for the address to which the check should be sent.
Upon receipt by the IRS of the check made payable to
the United States Treasury paying the tax lien, and
A2

the clearance of that check, the IRS shall record with
the Offices of the Marion County-Recorder a properly
execute releases of all of its liens against the Ritter
Avenue Property.
2. At such a time in advance of the closing for the
Title Insurance Policy to show that there are no State
of Indiana tax liens on the Ritter Avenue Property,
the Indiana Department of Revenue shall record with
the Offices of the Marion County Recorder properly
executed releases of all of its liens against the Ritter
Avenue Property.
3. The net sale proceeds shall be distributed as
follows:
A. First, to the United States Treasury, up tO
$28,601.46, plus any accrued interest that has accrued
on the first priority liens of the IRS from July 22,
2017, up to the closing date of the sale;
B. Next, to the extent of the remaining net sale
proceeds, to IDOR, up to $5,956.76, plus any accrued
interest that has accrued on the second priority liens
of IDOR from July 22, 2017, up to the closing date of
the sale;
C. Next, to the extent of the remaining net sale
proceeds, to the United States Treasury, up to
$5,946.98, plus any unpaid accrued interest that has
accrued on the first priority liens of the IRS from July
22, 2017, up to the closing date of the sale;
D. Next, to the extent of the remaining net sale
proceeds, to the State of Indiana, up to $4,007.21,
plus any unpaid accrued interest that has accrued on
the second priority liens of IDOR from July 22, 2017,
up to the closing date of the sale;
E. The balance of the net sale amount shall be
deposited into the Estate’s checking account.
A3

IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that following their receipt of the
payments hereinabove Ordered, the United States of
America (through its Internal Revenue Service) and
the State of Indiana (through the Indiana
Department of Revenue) shall file in this cause their
respective releases of all their respective claims
against the Estate.
IT IS FURTHER ORD‘ERED, ADJUDGED AND
DECREED that upon the consummation of the
closing of the sale of the Ritter Avenue Property and
the distributions as hereinabove Ordered, the
Personal Representative shall have no further duties
or responsibilities with respect to the Ritter Avenue
Property.
SO ORDERED this 12th day of June, 2018
James A. Joven, Special Judge,
Marion Superior Court 13, Civil Division
SO AGREED
/s/ Robert W. York /s/ Debra G. Richards
Robert W; York, #1435, Debra G. Richards,
#21 800-49
Attorneys for Personal Representative Assistant U.S.
Attorney,

A4

ROBERT W. YORK & ASSOCIATES
7212 North Shadeland Avenue, Suite 150
Indianapolis, IN 46250
Tel: (317) 842-8000
Fax: (317) 577-7321
Email: rwyorkchyork-law.com
Office of the United States Attorney
Attorneys for IRS
10 West Market Street, Suite 2100
Indianapolis, IN 46204-3048
Tel: (317) 226-6333
Fax: (317) 229-5027
Email: Debra.Richards@usdoj.gov
/s/ John S. Phillipp
John S. Phillipp, #26894-53
Deputy Attorney General
Office of the Indiana Attorney General
Attorneys for IDOR
302 West Washington Street
IGCS-5th Floor
Indianapolis, IN 46204
Tel: (317) 232-0080
Fax: (3 17) 232-7979
Email: john.phillipp@atg.in.gov
Distribution List:
Robert W. York, rwyork@york-law.com
John S. Phillipp, Deputy Attorney
iohn .phillipp @atg. in. gov
A5

General,

Melanie
Crouch,
Assistant
U.S.
Attorney,
melanie. crouch @usdoj. gov
Debra G. Richards, Assistant U.S. Attorney,
Debra. Richards@usdoi. gov
Beverly R. Newman, helpelders@110tmail.com
Lawrence T. Newman, helpelders@hotmail.com
Robert A. Zaban, robert.zaban@gmail.com
Louis Howard Katz, lkatz@gwu.edu
Julie Sophia Sondheim, jsondhelmg@jfgi.org
Mina Shirazi, Kian Shirazi, Emilie Sondheim, Kenna
Sondheim, jsondhelm@jfgi.org
Ronald Isaac c/o Morris Lewis Klapper,
mlklawll@gmail.com

A6

APPENDIX B

MEMORANDUM DECISION
Pursuant to Ind. Appellate Rule 65(D), this
Memorandum Decision shall not be regarded as
precedent or cited before any court except for the
purpose of establishing the defense of res judicata,
collateral estoppel, or the law of the case.
IN THE
COURT OF APPEALS OF INDIANA
In re the Estate of A1 Katz, Deceased
Lawrence T. Newman
Appellant,
v.
Robert W. York, as Personal Representative; Internal
Revenue Service; and State of Indiana,
Appellees.
December 31, 2018
Court of Appeals Case No. 18A-ES-1721
Appeal from the Marion Superior Court
The Honorable James A. Joven, Special Judge
Trial Court Cause No. 49D13-1009-ES-40244

Brown, Judge
B1

Lawrence T. Newman (“Newman”) appeals the trial
court’s June 12, 2018 order regarding the sale of
certain property belonging to the Estate of A1 Katz.
We affirm and remand.
Facts and Procedural History
The Last Will and Testament of A1 Katz nominated
and appointed his son, Louis Howard Katz, as his
personal representative. Katz’s will also stated:
“Because of the estrangement which has developed
between my daughter, Beverly Rochelle Newman, and
me, and not for absence of love for her, I intentionally
leave her nothing under this Last Will and
Testament.” Id. at 3.
After Katz’s death in 2010, the trial court appointed
Beverly Newman (“Beverly”), Newman’s wife, as
personal representative. In October 2010, Newman
filed an appearance for Beverly. On December 20,
2011, the Indiana Supreme Court suspended Newman
for a period of at least eighteen months and required
him to go through the reinstatement process before
resuming practice. 1 See In re Newman, 958 N.E.2d
792, 800 (Ind. 2011). On January 25, 2012, Newman
filed a motion to withdraw appearance, and Attorney
Robert Zaban filed an appearance for Beverly. On
February 3, 2012, the court granted Newman leave to
withdraw as counsel for Beverly.
1. As of December 18, 2018, the Indiana Roll of
Attorneys lists Newman’s status as suspended.
B2

In May 2013, Newman filed a motion for
reimbursement of administrative expenses related to
the Estate.2 He asserted that he paid most of the
administrative expenses including utilities, property
taxes, and legal expenses, and requested the court to
enter an order directing the Estate to reimburse him
in the amount of $42,284.54. Attorney Zaban filed a
response in which he detailed the actions of Newman
and Beverly and asserted that “waste and jeopardy of
the Florida real property of this supervised estate in
[sic] ongoing and accelerating.” Appellee’s Appendix
Volume II at 10. On May 29, 2013, the court granted
Attorney Zaban’s motion to withdraw.
2. Newman asserts that he filed his “Verified Motion
for Reimbursement of Payment of A1 Katz Estate
Administrative Expenses” on April 27, 2013.
Appellant’s Brief at 8. He cites to a copy of the
document which is dated April 27, 2013, but does not
contain a file stamp. The chronological case summary
includes an entry dated May 20, 2013, which states:
“Document Filed[.] File Stamp: 05/15/2013[.] Verified
Motion by Lawrence T Newman, Pro Se for
Reimbursement of Payment of A1 Katz Estate
Administrative Expenses.” Appellant’s Appendix
Volume II at 13 (capitalization omitted).

On August 28, 2013, October 9, 2013, and March 19,
2014, Newman filed motions for reimbursement of
payment of administrative expenses. On May 7, 2014,
the court entered a Rule to Show Cause Why Beverly
B3

Should Not Be Removed as Personal Representative
for the Estate, which stated in part that Beverly had
filed a claim against the Estate for services provided
to the decedent during his lifetime in the amount of
$233,725; Newman had filed a claim for services
provided to the decedent during his life in the amount
of $43,400 and had filed a claim in the amount of
$50,836 against the Estate for expenses arising from
the administration of the Estate; Newman and
Beverly reside at the former residence of the decedent
in Florida and said residence constitutes a significant
asset of the Estate; Beverly had not paid homeowner
fees for the Florida residence, which was the subject
of a foreclosure action as a result; and Beverly had not
filed a Final Accounting in violation of Probate Local
Rule 411. On June 2, 2014, Beverly filed a response to
the rule to show cause.
On January 12, 2015, the court entered an order
removing Beverly as the personal representative. The
order also vacated certain allowances by Beverly of
Newman’s motions for reimbursement of expenses,
ordered that Beverly shall not pay any amount of the
claims of her or Newman against the Estate including
for reimbursement of Estate expenses, and appointed
Attorney Robert W. York to serve as the successor
personal representative of the Estate. On February
11, 2015, Beverly filed a motion to correct errors
challenging the removed order and asserting in part
that she and Newman had a long-standing adverse
relationship with Attorney York. On May 12, 2015,
the court denied the motion. On June 11, 2015,
B4

Beverly filed a notice of appeal of the January 12,
2015 order under Appellate Cause No. 49A02-1506ES-642 (“Cause No. 642”). On August 21, 2015, this
Court dismissed Beverly’s appeal with prejudice. On
November 10, 2015, this Court denied Beverly’s
petition for rehearing, and the Indiana Supreme
Court denied Beverly’s petition for transfer.3
3. The Indiana Supreme Court’s order denying
transfer listed Beverly and Newman as appellants.
On September 28, 2015, Attorney York as the
personal representative of the Estate filed a status
report and petition for issuance of orders regarding
property of the Estate. On October 19, 2015, Newman
and Beverly filed a response requesting in part that
the court:
(1) immediately approve the Estate administrative
expense reimbursement motions respectively filed by
[Newman] and [Beverly]; (2) issue an order
compelling Robert York to use his best efforts to
obtain the written agreement of the Internal Revenue
Service
granting
priority
of the
Estate’s
administrative expenses claimed by [Newman] and by
[Beverly] over the IRS’[s] claim for unpaid income
taxes of A1 Katz, penalties, and interest and to obtain
the written agreement of the IRS to remove its claim
and lien from A1 Katz’s Indianapolis home; and (3) for
all other relief just and proper in the Premises.
Id. at 96.
On December 8, 2015, the court ordered that
B5

Attorney York as the personal representative take all
reasonable action required to close the sale of the
Estate’s real property located at 4727 N. Ritter
Avenue in Indianapolis (the “Ritter Property”) to
Matthew G. Evans for the gross purchase price of
$57,000 in cash.
On January 25, 2016, Newman filed a Verified
Petition for Payment of Estate Attorney Fees. On
March 2, 2016, the court entered a Rule to Appear
and Show Cause Regarding December 9, 2015 Order
Pertaining to Estate’s Ritter Property in which the
court ordered in part that Newman shall “show cause
why he should not be attached and punished for
indirect contempt of Court for his December 29, 2015
instituted resistance, hindrance and delay in the
carrying out of or putting into effect the lawful
December 9, 2015 Order of this Court which Ordered
the sale of the Estate’s Ritter Property in the manner
required by that Order.”4 Id. at 127. On May 9, 2016,
Newman filed a Notice of Court of Transfer of
Interest of Administrative Expense Claim and Motion
for Approval and Payment of Claim.
4 It appears that the trial court intended to refer to
the December 8, 2015 order.
On June 21, 2017, the court entered an Order of
Instructions as to the Ritter Property ordering in part
that Attorney York as the personal representative
notify counsel for the United States of America, the
Indiana Department of Revenue (the “IDOR”), the
B6

Office of the Marion County Auditor, and Evans, that
he is prepared to facilitate the sale or transfer of the
Ritter Property and that Evans and those taxing
authorities shall work together to agreeably resolve
all liens and claims against the Ritter Property. 5
5 The chronological case summary indicates
numerous filings and multiple orders were entered
between January 25, 2016, and June 21, 2017. The
record does not include copies of all of the court’s
orders.
On August 4, 2017, the court entered an Order
Directing Sale of Ritter Avenue Property and
Distribution of Proceeds which states in part:
11. On March 2, 2016, the Court issued its Rule
to Show Cause requiring [Beverly] and
[Newman] to appear and show cause as to why
they each[] should not be found in indirect
contempt of court for their resistance,
hindrance, and delay in the carrying out of or
putting into effect the December 8, 2015, Order
of this Court. The Show Cause Order also
relieved the Personal Representative from
selling the Ritter Avenue Property until
matters pertaining to that Rule to Show Cause
were fully resolved and the Court issued
subsequent instructions to the Personal
Representative.

13. [Newman] had also previously asserted
B7

(and continues to assert) claims against the
Estate totaling more than $50,000.00
purportedly expended on behalf of the Estate.
With respect to [Newman’s] claims for
administrative expenses, the Court, in its
Removal Order, recognized that the Estate had
de minimis assets and that [Newman] did not
assert any such claims until 16 months after he
withdrew as [Beverly’s] attorney. The Court
claims
that
[Newman’s]
determined
constituted an unlawful conflict of interest,
vacated [Beverly’s] allowances of [Newman’s]
claims, and specifically directed [Beverly] not
to pay those claims.
14. The Court has repeatedly denied
[Newman’s]
claims
for
administrative
expenses. Time and again, [Newman] has
(unsuccessfully) attempted to have the Court
recognize that his administrative claims were
still in existence. During the July 21, 2017,
hearing, the Court restated from the bench
that the Court had long ago denied [Newman’s]
purported claims against the Estate.
15. Although the Indiana Probate Code
generally provides that claims for expenses of
administration take priority over claims for
B8

taxes, the filing of the Federal Tax Lien against
the Ritter Avenue Property invoked the
following:
Nothing in this section shall affect or prevent
any action or proceeding to enforce any
mortgage, pledge, or other lien upon property
of the estate.
Ind. Code § 29-l-14-l(e). Moreover, specific
liens take precedence over expenses of
administration, the payment of the reasonable
expenses of decedent’s funeral, and the
reasonable expenses of decedent’s last sickness.
Estate of Lammerts v. Heritage Bank & Trust
Co., 663 N.E.2d 1174, 1176-77 (Ind. Ct. App.
1996)[, trans. denied\.
16. Although the Court denied [Newman’s]
claims several years ago, even if they continued
to exist as administrative claims, the liens of
the tax authorities on the Ritter Avenue
Property take precedence over any such claims.
17. On October 21, 2016, a tax lien certificate
for the Ritter Avenue Property was sold at a
tax sale because property taxes had been
unpaid. On or before October 21, 2017, at least
$9,390.97 (the balance due as of June 14,
2017), plus accruing interest, must be paid to
the Treasurer or a Tax Deed will be issued to
the tax sale purchaser, and the Estate will no
longer be able to sell the Ritter Avenue
Property.
B9

18. Time is of the essence in this matter, as the
redemption date for the tax lien certificate is
approaching.
19. The current balance in the Estate’s
checking account is $1,913.91, and the Estate
has insufficient resources to pay the amount
required to redeem the Ritter Avenue Property
from the tax sale.

29. At the hearing on July 21, 2017, [Newman]
was the sole challenger to the sale of the Ritter
Avenue Property. [Newman’s] only ground to
challenge the sale was that he had not been
paid what he asserted were his claims for
administrative expenses.
30. The Court again rejects [Newman’s]
assertions that he has pending claims against
the Estate.
36. This Order pertains solely to the sale of the
Estate’s Ritter Avenue Property,
the
distribution of proceeds from such sale, and the
claims and liens asserted. Other matters
pertaining to the administration of the Estate
remain pending.
IT IS THEREFORE ORDERED, ADJUDGED
AND DECREED that Robert W. York, as the
Personal Representative, and all persons with a
direct interest in the Ritter Avenue Property,
shall forthwith take all reasonable actions
required to close the sale of the Ritter Avenue
BIO

Property to Matthew G. Evans for the gross
purchase price of $57,000.00 ....
* * * Hi H'

IT IS FURTHER ORDERED, ADJUDGED
AND DECREED that the sale of the Ritter
Avenue Property and distribution of the sale’s
proceeds, as hereinabove Ordered, shall not be
stayed by any appeal or other action to contest
this Order, unless the person or entity seeking
such appeal shall, within 15 days after the
entry of this Order, file with this Court a
motion for stay accompanied by a bond
(provided for by Indiana Rule of Trial
Procedure 62) in the amount sufficient to
secure any amount recovered for the loss or
detention of the property; to pay all obligations
of the Estate of A1 Katz to the extent that the
other property of the Estate is insufficient to
pay those obligations; the costs of the action
and costs on appeal, including any attorney
fees incurred by the Personal Representative in
defending the appeal; interest; and any other
amounts as justice requires. This potential
appeal bond amount is not yet determined and
is subject to this Court’s jurisdiction, per Trial
Rule 62.
Id. at 176-183. On August 9, 2017, the court entered
and order setting the appeal bond at $125,000.
On April 11, 2017, Attorney York filed “Personal
Representative’s Application for Temporary
Bll

Restraining Order
Regarding Florida
Volume II at 54.
entered an Order
states in part:

and for Further Injunctive Relief
Lawsuit. ”6 Appellant’s Appendix
On August 28, 2017, the court
Granting Injunctive Relief which

6 The record does not contain a copy of the April 11
2017 filing.
B. THE NEWMANS’ CLAIMS AGAINST THE
ESTATE
6. On January 6, 2011, [Newman] filed Claim
No. 2 against the Estate in the amount of
$11,600.51. On February 1, 2011, [Beverly]
filed Claim No. 3 against the Estate in the
amount of $233,725.00, for personal services
alleged to have been provided to Katz. On
February 2, 2011, [Newman] filed Claim No. 4
against the Estate for personal services alleged
to have been provided to Katz, valued at
$43,400.00.

8. On March 14, 2011, this Court dismissed
Claim No. 2. On March 21, 2011, the Court
dismissed Claims No. 3 and 4.
9. On April 12, 2011, [Beverly], in her former
capacity as personal representative of the
Estate, filed a “Claim Allowance Form” that
purported to allow the Newmans’ separate
Claims 2, 3, and 4 against the Estate, despite
the Court’s previous dismissal of those Claims.
B12

Also on April 12, 2011, [Beverly] filed her
“Verified Motion To Vacate Orders Dismissing
Claims 002, 003, and 004 And For Leave to File
Claim Allowance Form.” A review of the
Record of Proceedings in this Estate does not
show any ruling on [Beverly’s] April 11 motion
to vacate the orders dismissing the Newmans’
claims.
10. The Record suggests, however, that the
Estate did not pay the Newmans’ claims.
Following the Court’s dismissal of his claims,
[Newman] filed four separate motions seeking
payment from the Estate for utility, property
tax, other real property costs; legal expenses
and costs incurred with respect to multiple
damages lawsuits the Estate initiated in
Florida; costs incurred with respect to the
defense of a foreclosure action filed against A1
Katz’s
Florida
condominium
by
his
condominium association; and other expenses
[Newman] asserted that he incurred to
administer the Estate.
11. While his Claim No. 4, filed in 2011, sought
payment of $43,400.00 from the Estate, on
April 27, 2013, [Newman] sought payment of
only $42,284.54. On August 28, 2013,
[Newman]
again
sought
payment
of
$42,284.54, plus an additional $2,054.11 for
amounts set forth on Exhibit 1 of his August 28
motion, for a total of $44,338.65. On October 9,
2013, [Newman’s] claimed payment due from
B13

the Estate rose to $45,414.13. On March 19,
2014, [Newman] sought $50,836.81.
12. On April 25, 2014, [Beverly], in her former
capacity as personal representative of the
Estate, filed her “Personal Representative’s
Approval Of [Newman’s] Motions For
Reimbursement Of Estate Expenses” (the
“Approval”). On May 1, 2014, [Beverly] filed
her “Personal Representative’s Verified
Approval of [Newman’s] Motions For
Reimbursement Of Estate Expenses” (the
“Second Approval”). As with the Claim
Allowance Form, [Beverly] filed the Approval
and the Second Approval despite the Court’s
previous dismissal of [Newman’s] claims.
Appellee’s Appendix Volume II at 192-193. The court
also discussed the lawsuit filed by the Newmans
against Attorney York in Florida. The court
determined that an injunction preventing the
Newmans from further prosecuting their lawsuit
against Attorney York was appropriate, that the
Newmans’ lawsuit frustrated policies of the court and
was vexatious and oppressive, and that injunctive
relief would prevent multiplicity of lawsuits. On
September 29, 2017, the court denied Newman’s
motion to correct errors regarding the injunction.
On October 22, 2017, Newman filed a notice of appeal
of the August 4, 2017, and August 9, 2017 orders
under Appellate Cause Number 49A05-1710-ES-2475
B14

(“Cause No. 2475”). That same day, Newman filed a
notice of appeal of the court’s August 28, 2017, and
September 29, 2017 orders under Cause No. 2475. On
November 27, 2017, Attorney York filed a verified
motion to dismiss the appeal as untimely. That same
day, Newman filed a Motion for Two Separate
Appeals which stated in part that “[s]aid Appeal is
substantially based upon the trial court’s failure and
refusal to hear and determine [his] multiple motions
for reimbursement of Estate administrative expenses
prior to the distribution of the subject sale proceeds,
such that [he] is prevented from sharing in said sales
proceeds.” November 27, 2017 Motion for Two
Separate Appeals at 1-2.
On January 4, 2018, this Court entered an order
which granted in part and denied in part Attorney
York’s motion to dismiss. Specifically, this Court
ordered that Newman’s appeal of the trial court’s
August 4, 2017, and August 9, 2017 orders be
dismissed with prejudice and denied the motion to
dismiss Newman’s appeal of the trial court’s August
28, 2017 order. This Court’s order also stated that
Newman’s Motion for Two Separate Appeals was
denied as moot because Newman’s appeal of the trial
court’s August 4, 2017, and August 9, 2017 orders had
been dismissed.
On June 6, 2018, Attorney York filed a second verified
motion to dismiss the appeal.7
B15

7 Attorney York argued that: “1. [Newman’s]
Appendix and Brief were untimely filed; 2. [Newman]
commits bad faith in attempting to assert the
existence of issues previously dismissed with prejudice
by this Court; 3. [Newman’s] brief repeatedly violates
the provisions of Ind. Appellate Rule 22(C) and Ind.
Appellate Ride 46 by failing to support his ‘fact’
statements with proper reference to his Appendix and
by refusing to recite facts in accordance with the
applicable standard of review[;] 4. [Newman] commits
bad faith in attempting as a non-attorney to represent
the interests of his wife, Beverlyt;] 5. [Newman’s]
brief is replete with hyperbolic and accusatory
sOtatements showing an inappropriate tone and lack
of respect for the opposing party; and 6. [Newman’s]
appellate materials are replete with redundant,
immaterial, impertinent, scandalous or other
inappropriate matter and fail to include necessary
records.” June 2, 2018 Second Verified Motion to
Dismiss Appeal at 1-2.
On September 12, 2018, this Court granted Attorney
York’s motion to dismiss the appeal, ordered the
appeal dismissed with prejudice, granted Attorney
York’s request for appellate attorney fees, and
remanded to the trial court to calculate the amount of
appellate attorney fees. On October 12, 2018,
Newman filed a petition for rehearing. On November
19, 2018, this Court denied Newman’s petition for
rehearing.
Meanwhile, on December 18, 2017, the trial court
B16

entered Additional Instructions Regarding the Ritter
Property which found that Evans indicated his
unwillingness to move forward with the purchase of
the property due to the property having an
undisclosed in-ground septic system rather than a
municipal sewer system. The court instructed the
personal representative to begin investigating the
current value of the property and obtain a new
appraisal.
On March 2, 2018, the court entered an Agreed Order
Regarding Ritter Property which found that the
purchase agreements and occupancy agreement
between the Estate and Evans were vacated. On
March 26, 2018, Newman filed an Objection to
Donation or Discard of A1 Katz’s Personal Property.
On April 2, 2018, the trial court overruled Newman’s
objection and ordered the personal representative to
execute a listing agreement to place the Ritter
Property on the market for sale at an initial listing
price of $100,000.
On April 25, 2018, the court entered a Judgment
Order Pertaining to Beverly’s Accounting, which
ordered that “the December 16, 2017, ‘Second/Third
Final Accounting of Dr. Beverly Newman’ is
disapproved as to her administration of the Estate’s
Ritter Avenue Property and personal property, and
her improper expenditure of Estate assets.”
Appellee’s Appendix Volume III at 74. The order also
states in part:
B17

25. The Court has issued multiple additional
pertaining
to
[Newman’s]
Orders
administrative claims, including its August 4,
2017 “Order Directing Sale of Ritter Avenue
Property and Distribution of Proceeds,” finding
that [Newman’s] said claims had “long ago”
been denied by the Court. [Newman’s]
attempted appeal of that Order was dismissed
with prejudice by the Indiana Court of Appeals
on January 5, 2018.
Id. at 65. The court ordered that Beverly be
personally charged the sum of $53,362.36, and
entered judgment for the Estate against her in that
amount.
On June 12, 2018, the court entered an Agreed Order
of Instructions as to Sale of Ritter Avenue Property,
which instructed the personal representative to accept
the purchase offer of J & D Realty Services to
Opurchase the Ritter Property for $62,000, close on
the sale as soon as reasonably possible, and pay the
normal closing costs expected to be approximately
$7,809. The court ordered that the net sale proceeds
be distributed with a total of $34,548.44 with interest
paid to the United State Treasury, a total of $9,963.97
with interest paid to the State of Indiana, and the
balance deposited into the Estate’s checking account.
[20] On July 12, 2018, Newman filed a notice of
appeal of the July 12, 2018 order and asserted that
the appeal was from an interlocutory order taken as
of right pursuant to Ind. Appellate Rule 14(A) or
14(D).
B18

Discussion
Newman argues that Attorney York was wrongfully
appointed because of his long-standing animus
against him; that the trial court’s disparate treatment
of him and Attorney York evidence bias; the trial
court’s determinations that his administrative
expense claims were dismissed or denied are
erroneous; and that his administrative expense claims
have statutory priority over federal and state tax
claims.
Attorney York as the personal representative argues
that Newman’s appeal should be dismissed for:
violation of the Appellate Rules; his bad faith
attempts to assert issues involving Beverly’s 2015
motion to correct errors; his bad faith attempt to
assert but not support claims of bias by the trial
court; and his bad faith attempt to assert his
previously dismissed with prejudice claims for
administrative expenses. Attorney York argues that
Newman invited the error he now attempts to appeal
and that the issues are moot because Newman “knew
that the closing of the sale would occur soon after the
June 12, 2018 Sale Order,” knew that “the proceeds
of that sale would not be distributed to him,” and he
“used the entire permitted 30-days to appeal that
Order and did so without seeking a stay.” Appellee’s
Brief at 36. Attorney York also asserts that he is
entitled to appellate attorney fees based upon
Newman’s wrongful conduct in this appeal.8
B19

8 On November 20, 2018, Newman filed a verified
motion to strike Attorney York’s Appellee’s Brief.
(Odyssey) By separate order, we deny Newman’s
motion. In his brief, Attorney York argues that we
should strike Newman’s brief because it includes
hyperbolic and inappropriate language. We decline to
strike Newman’s appellate brief.
To the extent Newman argues that Attorney York
was wrongfully appointed as the personal
representative because of Attorney York’s long­
standing animus against him, we observe that a
similar argument was addressed by the trial court
when it denied Beverly’s motion to correct error
following the trial court’s order removing her as the
personal representative. This Court dismissed that
appeal with prejudice under Cause No. 642, denied
rehearing, and the Indiana Supreme Court denied
Beverly’s petition for transfer. We observe that
Newman is appealing only the July 12, 2018 order.
Accordingly, we do not address this issue. See
Reiswerg v. Statom, 926 N.E.2d 26, 30 (Ind. 2010)
(holding that the only issues presented in the appeal
were those raised by the trial court’s order certified
for interlocutory appeal).
With respect to Newman’s argument that the trial
court erred in determining that his administrative
claims were dismissed or denied, Newman cites the
court’s August 4, 2017 order in which the trial court
stated that it had repeatedly denied Newman’s claims
for administrative expenses. Newman also cites the
B20

trial court’s August 28, 2017 order in which the court
mentioned it had previously dismissed his claims.
However, Newman already sought an interlocutory
appeal of these orders under Cause No. 2475 and the
appeal was dismissed with prejudice. “It is generally
recognized that a dismissal with prejudice is a
dismissal on the merits.” In re Guardianship of
Stalker, 953 N.E.2d 1094, 1102 (Ind. Ct. App. 2011)
(citing MBNA America Bank, N.A. v. Kay, 888 N.E.2d
288, 292 (Ind. Ct. App. 2008)). As such it is conclusive
of the rights of the parties and res judicata as to the
questions which might have been litigated. Id. As we
dismissed Newman’s appeal with prejudice, we do not
disturb the trial court’s finding that it had denied
Newman’s claims for administrative expenses, and
this issue is foreclosed for our review.
With respect to Attorney York’s request for attorney
fees, Ind. Appellate Rule 66(E) provides that this
Court “may assess damages if an appeal, petition, or
motion, or response, is frivolous or in bad faith.
Damages shall be in the Court’s discretion and may
include attorneys’ fees.” Our discretion to award
attorney fees under Ind. Appellate Rule 66(E) is
limited to instances when “an appeal is permeated
with meritlessness, bad faith, frivolity, harassment,
vexatiousness, or purpose of delay.” Thacker v.
Wentzel, 797 N.E.2d 342, 346 (Ind. Ct. App. 2003). To
prevail on a substantive bad faith claim, a party must
show that the appellant’s contentions and arguments
B21

are utterly devoid of all plausibility. Id. Procedural
bad faith occurs when a party flagrantly disregards
the form and content requirements of the rules of
appellate procedure, omits and misstates relevant
facts appearing in the record, and files briefs written
in a manner calculated to require the maximum
expenditure of time both by the opposing party and
the reviewing court. Id. at 346-347. In light of
Newman’s appellate briefs and arguments, we
conclude that Attorney York
as
personal
representative is entitled to appellate attorney fees,
and we remand to the trial court to determine the
proper amount of the appellate fee award.
Conclusion
For the foregoing reasons, we affirm the trial court’s
order, grant Attorney York’s request for appellate
attorney fees, and remand for a determination of
Attorney York’s reasonable appellate attorney fees.
Affirmed and remanded.
Riley, J., and Bradford, J., concur.

B22

